Case #:
THE SUPREME COURT OF THE UNITED STATES
Tamara Rouhi
Plaintiff/Appellant

Original Case Number: 19CV703
Original Case/Complaint/Exhibits
Filed: 3/6/19

V
Comcast
Defendant/Appellee

Appellate Court Case Number:
20-1979
A review from the US Court of
Appeals for the Fourth Circuit.
Civil Case.
Jury not requested.

CERTIFICATE OF COMPLIANCE & CERTIFICATE OF SERVICE

Adam S Caldwell

Tamara Rouhi

Davis Write Tremaine LLP

125 Fennington Circle

1919 Pennsylvania Ave. NW

Owings Mills MD 21117

Ste 800

4105228217

Washington, DC 20006

Pro Se Plaintiff/Appellant

2029734200
Counsel for Comcast

CERTIFICATE OF COMPLIANCE
The Document titled Petition for Review and Writ of Certiorari is in Century
Schoolbook font in at least llpt. It is on 8 1/2 by 11 paper. The pages are double
spaced. It contains /3

pages and

words, and does not exceed the US

Supreme Court’s word limitations.
CERTIFICATE OF SERVICE
One copy of the Document titled Petition for Review and Writ of Certiorari
shall be served upon each party in accordance with Supreme Court Rule 29, 3
(Rule 33.2 preparation). In addition, two Appendix Volumes, A Motion to proceed
in Forma Pauperis (both typed and filled out), and this document will be sent to
the Defendant. One copy will also be sent to the US Supreme Court in light of the
Corona Virus.
This was done Via USPS on the date of Z?—

. The addresses are

listed below.
Defendant’s Attorney

US Supreme Court

Adam S Caldwell

1 First Street NE

Davis Write Tremaine LLP

Washington, DC 20543

1919 Pennsylvania Ave. NW Ste 800
Washington, DC 20006
I certify, under penalty of perjury, that the information in this document is
true to the best of my knowledge.

—
'

Tamara Rouhi
Pro Se

